HHS/OIG-Audit--"Report on the Independent Audit of Administrative Costs Incurred Under Parts A and B of the Health Insurance for the Aged and Disabled Program: Associated Insurance Companies, Inc., (A-05-92-00026)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Independent Audit of Administrative Costs Incurred Under
Parts A and B of the Health Insurance for the Aged and Disabled Program: Associated
Insurance Companies, Inc.," (A-05-92-00026)
February 12, 1992
Complete Text of Report is available in PDF format
(1.6 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report on Medicare (Parts A and B) administrative costs incurred by Associated
Insurance Companies, Inc. (Associated) for the period October 1, 1984 through
September 30, 1986 was prepared under an audit contract with the certified public
accounting firm, Cotton and Company. This report discloses unallowable costs
of and recommends financial adjustments totaling approximately $2.5 million.